                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: 108040025                                                                   Page 1 of 1



          We obtained and reviewed the content of an NSF employee's} Temporary Internet Files folder, in
          which we located 26 sexually explicit images. We examined the index.dat files for the websites
          the employee visited, and determined the employee was accessing hislher Yahoo email account
          at the time the inappropriate images were stored in hislher Temporary Internet Files folder.

          During an interview, the employee admitted to receiving, viewing, and forwarding sexually
          explicit images on hislher NSF computer. The employee violated several NSF policies and as a
          result, we issued a Report of Investigation2 and recommended NSF take appropriate personnel
          action. NSF suspended the employee for 10 days.3 The employee filed a grievance, and a
          hearing was held. The arbitrator determined NSF's suspension was for just cause and denied the
          employee's grievance.

                    Accordingly, this case is closed.




          I
          2Tab 1
          3Tab2




NSF OIG FOnTI 2 (11/02)
CONFIDENTIAL                                                                            CONFIDENTIAL




       National Science Foundation
        Office of Inspector General




                         Confidential
                     Investigation Report
                   Case Number 108040025
                          September 30, 2008


   1bis Confidential Investigation Report is the property of the NSF OIG and may be disclosed outside
      NSF only by OIG under the Freedom of Information and Privacy Acts, 5 U.S.c. §§ 552, 552a.

                                                                                    NSF 010 Form 22b (11/06)
    Please note: This report contains confidential personal information and it should be disclosed
    only to individuals who must have knowledge of its contents to facilitate NSF's assessment
    and resolution of this matter. Unauthorized disclosure may result in personal criminal
    liability under the Privacy Act, 5 U.S.C. § 552a(i)(I).



                                                   Summary

This investigation involves a National Science Foundation (NSF) employee,1 who acknowledged
to the Office of Inspector General (OIG) that he had used his NSF computer to receive, view,
and forward emails containing inappropriate materiaL The employee's Temporary Internet Files
folder 2 contained image files that included sexually explicit photos of women. The employee
stated that he received the inappropriate images through emails from friends, including some
who work at NSF. NSF OIG identified a potential violation of current NSF Policy regarding
Personal Use of NSF's Technology and Communication Resources contained in NSF Bulletin
No. 04-11.

                                              OIG Investigation

OIG identified inappropriate material in the Temporary Internet Files folder of an NSF
employee. A review of the employee's R drive3 and Outlook folder. did not reveal any
inappropriate content. A review of the index.dat files 4 for the web sites that the employee had
accessed between April 29, 2008 and May 21, 2008 did not indicate that the employee had
visited any sexually explicit websites. 5 OIG accessed the employee's Temporary Internet Files
folder and identified 26 image files containing sexually explicit content. The files had
modification dates of February 15 and 22,2008, and May 15 and 16,2008. 6 OIG compared the
May 2008 modification dates with the data contained in the index.dat files and determined the
employee was accessing his Yahoo email account when the sexually explicit image files were
stored in the Temporary Internet Files folder.

Pursuant to NSF Policy regarding Personal Use of NSF's Technology and Communication
Resources contained in NSF Bulletin No. 04-11 ("NSF's Personal Use Policy"),7 NSF employees
are authorized to use NSF technology and communication resources for occasional personal use.
However, this policy creates express limitations on personal use, citing the Federal CIO



1
2 The Temporary Internet Files folder contains the files that are automatically downloaded when a user accesses a
web page or opens an attachment from an email. The files remain stored on the hard disk until cleared.
3 The R drive is a designated network drive assigned to each NSF employee/user for individual use/storage of data
and accessible only by the individual employee/user and/or OIRMIDIS technical staff.
4 An index.dat file is a list of all the websites accessed by the computer user and remains intact even after the
browsing history has been deleted manually through the browser window.
sTab #1 Memorandum of Investigation - Review of Index.dat Files.
6 Tab #2 Memorandum ofInvestigation - Review of Subject's Outlook Folder and Web-browser History.
7 Tab #3   NSF Bulletin No. 04-11, Personal Use ofNSF's Technology and Communication Resources.


                                                         1
Council's 1999 Model Policy/Guidance on "Limited Personal Use," ("Model Policy"),8 for
examples of inappropriate uses.

According to Section IV of the Model Policy:

"Employees are expected to conduct themselves professionally in the workplace and to refrain
from using government office equipment for activities that are inappropriate. Misuse or
inappropriate use of government office equipment includes....Using government office
equipment for activities that are illegal, inappropriate, or offensive to. fellow employees or the
public ... and... the creation, download, viewing, storage, copying, or transmission of sexually
explicit or sexually oriented materials."

Further, according to NSF IT Security User Responsibilities - Rules of Behavior, an NSF user
agrees to comply with the rules, one of which states the following:

        "... I understand that NSF IT resources, including e:-mail accounts, are for authorized
        Government use only and in accordance with NSF policy,· any activity that would
        discredit NSF, including seeking, transmitting, collecting, or storing defamatory,
        discriminatory, obscene, harassing, or intimidating messages or material is not
        permitted." 9                      .


The exaniination of the Temporary Internet Files folder determined that the images did not
include any underage subjects; the review determined that all of the image files contained adult
subjects. Based on this finding it was determined that due to the lack of any criminal violations,
this matter could be handled administratively and not require a referral to the United States
Attorney's Office for its review.

On July 10, 2008, the employee was interviewed by representatives from OIG in reference to the
files found on his computer,lO During the interview, the employee acknowledged having
received, viewed, and forwarded emails containing sexually explicit materials. He stated that he
received the emails containing the inappropriate material from friends and denied "generating"
any emails of such material. He stated that he was. accustomed to receiving the emails every
morning, but that lately that had stopped. He said he did not remember how many inappropriate
emails he had received and that he believed OIG has the ability to discover that information: The
employee later admitted to having forwarded emails containing sexually explicit images to
others, but stated that he did not store any of the emails in his personal Outlook folders or on his
NSF computer.                                                                            .

During the interview, the employee mentioned that he has three computers/personal devices
which he uses to access the Internet: his NSF computer at work, an NSF computer at his


8 Tab #4 - Federal CIO Council's 1999 Model Policy/Guidance on "Limited Personal Use."
9 Tab #5 NSF IT Security "User Responsibilities-Rules of Behavior."
10 Tab #6   Memorandum ofInvestigation - Interview with Employee, dated July 10, 2008. At the beginning ofthe
interview, OIG provided the employee with a Garrity Warning and a notice of his Weingarten Rights. The
employee signed the Garrity Warning at the end ofthe interview. He declined to sign the notice of his Weingarten
Rights. Both documents are included as part of Tab #6.


                                                       2
residence, and his personal Blackberry. He admitted that while it was possible to view images
on his personal Blackberry, he has used his NSF work computer to view sexually explicit images
sent by email. The employee stated he understood that the viewing and sending of sexually
explicit images is inappropriate at work. The employee acknowledged that he was familiar with
NSF's policy for use of government equipment and that he has participated in the Agency's IT
Security Awareness Training for at least the past three years. 11

On August 29, 2008, the OIG representatives interviewed the employee again to gather more
information about the NSF computer at his residence. 12 The employee stated he was given an
NSF computer and printer approximately six months ago to use while teleworking.· In the past
six months, the employee estimated that he has worked from home only four times because his
job is one that is not suitable for teleworking. The employee stated that both the computer and
printer are still in their original boxes; therefore, he has never used the equipment.

                                              OIG Conclusions

Based on the information contained in this report and the employee's own admission, OIG
concludes that the employee utilized his NSF computer to receive,view, and forward sexually
explicit images. Specifically, the employee accessed his Yahoo email account and viewed 26
sexually explicit images, which were then stored in his Temporary Internet Files folder. The
employee also forwarded emails containing sexually explicit images to others.

By receiving, viewing, and forwarding emails coritaining pornographic images on his NSF
computer, the employee knowingly violated policies contained in NSF Bulletin No. 04-11,
Personal Use of NSF's Technology and Communication Resources, which states: "Employees
may make use of the Internet and electronic mail for matters that are not official business
provided that the following criteria are met: (1) the use does not result in an additional charge to
the government, (2) the use is not offensive to co-workers or the public (such as sexually
explicit or otherwise inappropriate web sites), and (3) the use is not for illegal activities (such
as gambling or the distribution of copyrighted materials/media through illegal file sharing {peer
to peer} or otherwise )." (Emphasis added) The viewing and transmission of emails containing
inappropriate images also violated NSF's IT Security "User Responsibilities-Rules of Behavior."

                                          OIG Recommendations

In reference to the conclusions outlined above, we recommend that the National Science
Foundation:

             • 	 proceed with administrative actions that are appropriate and consistent with
                 previous similar incidents; and




11Tab #7 - Memorandum ofInvestigation - IT Security Awareness Training.
12Tab #8 - Memorandum ofInvestigation - Interview with Employee, dated September 3, 2008. The employee
signed both a Garrity Warning and a notice of his Weingarten Rights at the end of this interview. Both documents
are included as part of Tab #8.


                                                        3
•   determine if it is appropriate for the employee to have an NSF computer at his
    residence.




                                   4
                National Science Foundation
                4201 Wilson Boulevard, Arlington, Virginia 22230




 Memorandum

 To:

 From:

 Date:          June 3, 2009

 Re:            Notice of Decision on Proposed Suspension

 On March 18,2009, your supervisor,                    issued a proposal to suspend you
 for ten (10) calendar days for Misuse of Government Computer Equipment. I was
 designated as the deciding official on that proposal.

 You were advised of your rights to representation and to reply orally andlor in writing to
 me within 14 calendar days of your receipt of the proposal. On March 24,2009, you
provided me with a written reply. In your Vv'Yitten reply you did not dispute the facts
stated in the proposal to suspend, but offered several reasons you wished to have
considered. I have reviewed and considered your written response which consisted of
your objection to the proposed 10-calendar day suspension based on (I)your contention
that the specifIcations were exaggerated, (2) that you did not visit websites with sexually
explicit material using your NSF computer and that you did not download materials from
websites that could pose a security risk to NSF computer systems, (3) that you did
nothing to compromise NSF computer security, and (4) that the proposal to suspend for
ten days is too harsh considering the disciplinary actions taken for similar recent
infractions by others at NSF

. The proposal to suspend was based on the charge of Misuse of Government Equipment.
. The charge was supported by the documentation of 8 specific incidents, Four ofthe
  incidents are related to multiple sexually explicit images discovered in your Temporary
  Internet files located on the government computer assigned to you, and the remaining
  four incidents are related to you receiving, viewing and forwarding e-mails containing
 sexually explicit materials.

r hqve carefully reviewed the evidence presented to me. including your written response
and I have decided that a ten day suspension is warranted for the reasons set forth below.

Although you object to the characterization of the specifications, stating they were
exaggerated, you did not deny that you engaged in the activity noted in the proposal to
suspend and you did not dispute the documentary evidence. .
I lrave considered your assertion that the specifications listed in the proposed suspension
were exaggerated and that your violation of NSF policy is less severe than presented. 1
find this argument without merit. The specifications were sufficiently detailed to
describe the offense for which you were being charged. Your objection to the wording
does not negate the fact that you engaged in the misconduct.
  I have considered your 13 years of service and the fact that you have no disciplinary
 .record and that you have been a productive and valued member             for the past
  several years.

 Finally I have considered your assertion that I am being forced to take action against you
 because of the recent notoriety of computer misuse cases at NSF. I am the designated
 deciding official in this case and I take my responsibilities seriously. As such, my
 decision is based only on the evidence in the case file and any mitigation or aggravating
 factors presented to me.

 In making my decision I have considered your statement that you have no defense for
 your actions as well as your request that I impose an appropriate penalty consistent with
 past NSF practices. In consulting with HRM I have been assured that the proposed· ten
 day suspension is consistent with similar cases in the past year and that there have been
 no instances of comparable infractions where the disciplinary action was less than a ten
 day suspension. Given the seriousness of your actions I am in agreement with your
 supervisors proposed penalty and sustain the ten (10) day calendar suspension.

 Your suspension will be effective on June 5 through June 14. You are not to report to
 work on June .5. You should report to work at your normal time on June 15,2009. A
 personnel action reflecting the suspension will be placed on the permanent side of your
 Official Personnel Folder.

 You are responsible for removing all inappropriate material from both your e-mail and all
 computer drives. Failure to remove the inappropriate material could result in additional
 disciplinary action up to and including removal from federal service.

 Future misconduct will be dealt with severely and may result in penalty up to and
 including your removal.                                                          .

 If you believe that you have a personal problem that is impacting your conduct; please be
-advised that the Foundation has an Employee Assistance Program (EAP) ?-vailable that
 might be able to provide assistance. You can contact our EAP provider, COPE, Inc., at
 202-628-5100. Please understand that you alone are ultimately responsible for your
 conduct and performance.

 In accordance \\lith Article XVI of the Collective Bargaining Agreement between AFGE
 and the National Science Foundation, you may present a grievance at any time after
 receipt of this decision,. but not later than twenty-five (25) calendar days after receipt.

 If you believe this action was motivated in whole or in part by discrimination because of
 your race, color, religion, sex, age, national origin, physical or mental disability, or
 reprisal for prior EEO activity, pursuant to 29 CFR Part 1614, you may file a complaint
about this action with the National Science Foundation Office of Equal Opportunity
Programs. If you decide to file a discrimination complaint about this action, you must
bring your allegation(s) of discrimination to the attention of an EEG counselor within
forty-five (45) calendar days of the effective date of this action.

If you have any questions about your rights or the procedures involved in this action~ you
may contact                     Senior Employee Relations Specialist at (703)292-



                                                        !J
                              DIvision Director


r acknowledge receipt of this document.




cc: 	 Employee Relations
      Labor Relations
    OPF
